Nos. 19-251 & 19-255
INTHE

$Upreme Qtourt of tbe Wlniteb $tateg
AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,
v.
XAVIER BECERRA, in his official capacity
as the Attorney General of California,

Respondent.
THOMAS MORE LAW CENTER,

Petitioner,
V.

XAVIER BECERRA, in his official capacity
as the Attorney General of California,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 1st day of March, 2021, I caused three copies of the Brief of Center for Equal
Opportunity as Amicus Curiae in Support of Petitioners to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.

John J. Bursch

Aimee Athena Feinberg

ALLIANCE DEFENDING FREEDOM

CALIFORNIA DEPARTMENT OF JUSTICE

440 First Street, N.W., Suite 600
Washington, D.C . 20001
(616) 450-4235
jbursch@adflegal.org

1300 I Street
Sacramento, CA 95814
(916) 210-6003
aimee.feinberg@doj.ca.gov

Counsel for Thomas More Law Center

Counsel for Xavier Becerra

Derek L. Shaffer

QUINN EMANUEL URQUHART &
SULLNAN, LLP

1300 I Street, N.W., Suite 900
Washington, D.C. 20005
(202) 538-8000
derekshaffer@quinnemanuel.com
Counsel for Americans for Prosperity
Foundation

2

